    October 7, 2003




Testimony
                     Statement
                          of
                   Shelton Young
                      Director
    Readiness and Logistics Support Directorate
          Office of the Inspector General
              Department of Defense
                     before the
   Subcommittee on National Security, Emerging
       Threats and International Relations
     House Committee on Government Reform
                         on
       “Emerging Threats: Assessing DoD
         Controls of Critical Chemical and
        Biological Equipment and Material”



                  D-2004-005-T


               Department of Defense
           Office of the Inspector General
 Quality              Integrity        Accountability
                                                                                            1



Mr. Chairman and Members of the Subcommittee:

Thank you for the opportunity to appear before your Committee today and address your
questions regarding controls over disposal of DoD surplus equipment and controls over
select biological agents. I share your concerns that terrorists or extremist groups might
use surplus DoD biological equipment and agents to produce weapons of mass
destruction against United States citizens. Today I want to present the results of an
“Interagency Summary Report on Security Controls Over Biological Agents” (Report
No. D-2003-126).

The August 27, 2003, report consolidates issues identified in 27 reports published by the
Offices of the Inspectors General of the Departments of Agriculture, Army, Defense,
Energy, Health and Human Services, and Veterans Affairs. The summary report
identified nine systemic problems: physical security, personnel access controls,
inventory accountability and controls, contingency plans, registration with the Centers for
Disease Control and Prevention (CDC), import and export of agents, safety and security
training, management oversight, and policies and procedures. We are pleased to report
that corrective actions, as recommended in the 27 reports, were initiated by those
agencies.

I will also discuss the problems that we, the Office of the Inspector General, Department
of Defense, like the General Accounting Office, have identified with controls over the
disposal of DoD surplus equipment.

Interagency Summary Report

Deficiencies in security controls have serious implications for the health of United States’
citizens, should those controls be breached and biological agents removed from the
facility. Subsequent misuse of the biological agents could have serious health
consequences and disrupt the country’s agriculture, commerce, economy and, industry.

Biological Agents

Biological agents are micro-organisms, or their toxins, that cause or may cause human,
animal, or plant diseases. Such disease-causing biological agents are termed pathogens.
Select agents are pathogenic biological agents specifically described as having the potential
to pose a severe threat to public or agricultural health and safety. For instance, anthrax
(Bacillus anthracis1), smallpox (Variola major), and the Ebola viruses are considered select
agents by the CDC, while foot-and-mouth disease virus and classical swine fever virus are
considered select agents by the Department of Agriculture. The CDC has identified
36 biological agents as select agents due to their potentially devastating effect on human
populations. Correspondingly, the Department of Agriculture has identified an additional

1
    Spore-forming bacterium that causes anthrax.
                                                                                          2


33 biological agents as posing a threat to U.S. agricultural livestock or crop commodities.
Because various Federal agencies, contractors, and universities maintain laboratories with
biological agents to support biological defense programs, medical research, and clinical
diagnostic testing, the CDC—in conjunction with the National Institutes of Health—
provides guidelines for categorizing laboratory safety risks into four biosafety levels
(BSLs), with BSL-4 being the highest risk. As of March 2002, there were more than
275 facilities registered with the CDC to transfer or receive biological select agents.

Physical Security

Of the 27 reports, 24 addressed the adequacy of physical security controls over biological
agents, 23 of which cited one or more weaknesses in the controls. Physical security
controls include the use of physical barriers; the use of video camera surveillance,
intrusion detection systems, and security guards; and controlling physical access to
facilities and laboratories where agents are used or stored. For example, 17 of the
23 reports cited the lack of adequate controls over freezers or units used to store
biological select agents, and 14 reports identified that facilities where laboratories were
located either did not have intrusion detection systems or had physical barriers that were
easily bypassed. In addition, several reports cited facility entry systems that could
potentially allowed unauthorized personnel to enter by simply following behind
authorized personnel.

Figure 1 shows an open and accessible biological agent storage room located in a hallway
outside the laboratory.




              Figure 1. Open and Accessible Biological Agent Storage Room
                                                                                                                     3


Figure 2 shows a BSL-3 laboratory inside an aging trailer that is equipped with a hitch
and wheels, but not with adequate security devices.




                 Figure 2. BSL-3 Research Laboratory Housed in Mobile Trailer

Figure 3 shows open access to two different research facilities.




                             Figure 3. Open Access to Research Facilities

Personnel Access Controls

Personnel access controls were addressed in 25 of the 27 reports, 23 of which identified
weaknesses in the controls. Personnel access controls include the use of identification
badges, keys, logbooks, and background investigations. Personnel access controls are
necessary to preclude unauthorized personnel, including restricted persons identified in
the USA PATRIOT Act,2 from obtaining access to or possession of biological select
agents. Access weaknesses found included lack of access restrictions for maintenance
and repair personnel and foreign nationals (researchers and students).

2
 Restricted persons include felons or those indicted for felonies, unlawful users of a controlled substance, those
dishonorably discharged from the U.S. Armed Forces, individuals adjudicated as mentally defective, illegal aliens,
and non-resident foreign nationals of countries supporting international terrorism. As of May 21, 2002, the
Secretary of State had designated the governments of seven countries as state sponsors of international terrorism:
Cuba, Iran, Iraq, Libya, North Korea, Sudan, and Syria.
                                                                                            4


Some laboratories gave employees access to biological agents pending the results of
background investigations, and other laboratories allowed access by personnel with no
background investigation at all.

Inventory Accountability and Controls

Of the 27 reports, 24 addressed inventory accountability and controls, with 23 of the
reports identifying weaknesses in the inventory controls. Inventory controls include
storage, transfer, record keeping, and destruction of biological agents. The most frequent
inventory control weaknesses were poor record keeping and the lack of inventory control
systems. For example, an agency report stated that of 62 locations required to keep
inventories of chemical and biological agents, only 39 did, and only 22 updated their
inventories annually. As a result, one laboratory unknowingly continued to maintain
Salmonella, and an inaccurate inventory at another location resulted in the Secretary of
the agency misreporting to the Department of Homeland Security that the location was
not using BSL-3 agents, when in fact it was storing and experimenting with Bluetongue
virus and Vesicular stomatitis virus, both classified as BSL-3 agents by the Department
of Agriculture.

Another agency’s inventories were not reliable because of the various ways researchers
introduced biological agents into facilities, including the purchase of biological agents
from private vendors over the telephone using personal or Government credit cards.
Vendors generally sent the agents directly to the individual researcher. In addition,
researchers could independently reproduce cultures, and records showing such culture
increases did not always exist. The report also stated that it was a common practice to
informally share specimens with colleagues at other facilities and that such exchanges
were not always documented. For example, at one facility, a researcher purchased
17 containers of virulent anthrax in 1993 from a private vendor, then later gave the
anthrax to a colleague at another facility because his own project was canceled. He and
his colleague decided not to register the purchase or the transfer with CDC because they
held academic appointments at affiliated universities.

Contingency Plans

Of the 27 reports, 9 reviewed and addressed weaknesses in contingency plans that relate
to security controls over biological agents and the facilities that house the agents.
Contingency plans document rapid responses and special procedures to ensure the safety
and readiness of personnel, equipment, and facilities in response to major emergencies
caused by natural disasters, terrorists, or subversives. The following are some examples
of the problems cited in the reports.

One agency could not perform a vulnerability assessment because the agency lacked a
consolidated database to track the types and locations of agents stored and used.
                                                                                          5


Several reports cited the lack of up-to-date contingency plans, contingency plans for
missing agents, or contingency plans for power disruptions. For example, a laboratory
experienced regular power outages and critical system problems, including swipe card
access disruptions. Thus, during power disruptions, the doors would remain unsecured
until power was restored, resulting in the security of the facility being compromised.

CDC Registration

Nine of the 27 reports addressed CDC registration, of which five identified weaknesses.
Facilities that ship or receive biological select agents are required to register with the
CDC, in accordance with the Code of Federal Regulations (C.F.R.), Title 42,
Section 72.6. The purpose of the registration process is to ensure that biological agents
are shipped only to facilities with laboratories designed to handle the select agents and
with a legitimate reason for possessing the agents. Problems with CDC registration
included laboratories that did not know which agents, such as non-virulent agents,
required CDC registration, and one laboratory did not comply with CDC transfer
requirements because it was unaware of the existence of biological select agents in its
facility. In December 2002, 42 C.F.R. Section 72.6 was augmented by 42 C.F.R. Part 73,
“Possession, Use, and Transfer of Select Agents and Toxins.” Part 73 adds the
requirement that facilities that already possess biological select agents but have never
registered with the CDC to do so.

Import and Export of Agents

Of the 27 reports, 3 reviewed and addressed concerns with the import and export of
pathogens and select agents. Imported plants, plant products, and animals are regulated
through U.S. Department of Agricultural permits to protect the Nation’s population and
food supply. Concerns about the import of pathogens was addressed by one agency,
which stated in its report that its components lacked a system to track the number of
shipments entering the country under any individual import permit or to ensure that any
incoming shipment is actually associated with a valid import permit.

Certain biological agents and related technology are export-controlled in support of
U.S. foreign policy opposing the proliferation and illegal use of biological weapons. The
Department of Commerce maintains a listing of export-controlled biological agents and
export licensing requirements in its Export Administration Regulations. Concerns about
the export of biological select agents included shipping biological agents without
determining whether an export license was required and inadequate documentation and
reporting of biological agent shipments, as required by the Export Administration
Regulations.

Safety and Security Training

Of the 27 reports, 9 reviewed and identified training weaknesses. Training is essential
not only to remind employees of routine day-to-day preventative measures they can take,
                                                                                             6


but also to reinforce management emphasis on security. For example, personnel
controlling access to one facility had received no security response training. At another
location, security personnel were not aware that biological agent material was being
stored at the facility. Personnel at other facilities were not trained on which biological
agents were export-controlled.

Management Oversight

Of the 27 reports, 14 addressed the adequacy of management oversight, 13 of which
identified management oversight as a contributing factor to the inadequate controls over
biological agents. Management oversight is key to ensuring that employees are aware of
and are taking responsibility for the security of biological agents and the facilities that
use, store, maintain, or transfer the agents. The areas of management oversight
weaknesses identified included accountability, biosecurity, and development of
contingency plans. For example, at one laboratory, management emphasis and oversight
focused on bio-safety for laboratory personnel rather than on bio-security. At another
location, senior safety, security, and management officials were unaware that
experiments with biological agents were conducted at their laboratories.

Policies and Procedures

The major contributing factor for inadequate controls, according to 25 of the 27 reports,
was the lack of or need for improved policies and procedures in the areas of physical
security, personnel access, inventory management and training. The most-mentioned
deficiency related to the need to improve policies and procedures to control personnel
access and to preclude access by restricted persons.

Management Corrective Actions Initiated

Senior management at each of the six agencies have initiated corrective actions to
improve security controls over biological agents in response to the individual agency
reports. For example, the Secretary of one agency initiated a task force to develop
policies and procedures addressing four key controls: physical security, personnel
security, inventory control, and biosecurity incident response. In another agency, senior
officials assigned a full-time staff officer to establish a biological agent security program
and issued interim guidance on safeguarding select agents and on export controls over
biological agents. Another agency established an informational Web site, which includes
standardized procedures; another initiated followup actions to determine the status of
actions taken on the agency’s report recommendations.
                                                                                          7


Controls Over Disposal of Surplus Equipment

Like the General Accounting Office has reported, we, the Inspector General of the
Department of Defense, have identified problems with controls over the disposal of DoD
surplus equipment.

Report No. D-2003-101, “Law Enforcement Support Office Excess Property Program,”
June 2003, states that the Defense Reutilization and Marketing Service (DRMS) was
distributing DoD excess property to law enforcement agencies without the accountability
necessary to ensure that the property was properly and appropriately transferred. We
reviewed 148 DRMS excess property transactions related to the Law Enforcement
Support Office Excess Property Program and found that 45 percent (66 transactions) had
undocumented differences between the quantities of property approved for release and
the quantities issued to the law enforcement agency by DRMS; 21 percent
(31 transactions) had missing approval records; and 8 percent (12 transactions) had data
entry errors in the approval records. For example, office furniture issued by a DRMS
office located in New Mexico to a law enforcement agency had an acquisition value of
$5,400. The approved request was for office furniture valued at $600. There was no
documentation available to support the reason for the increased quantity. Both the Law
Enforcement Support Office and DRMS have ongoing initiatives to improve visibility
and accountability of DoD excess property. The Law Enforcement Support Office,
working with DRMS, planned to fully implement an automated requisition, approval, and
issuance process by October 2003. DRMS was in the process of developing digital
storage of source documentation to improve visibility and accountability of property
transfers.

Summary

Federal agencies, contractors, and universities, as holders of biological agents, have a
responsibility to ensure the security of biological agents. We recognize that
implementing security controls over biological agents will impact the open nature of the
research community and careful consideration is necessary before any such controls are
implemented. However, appropriate security controls over biological agents are
imperative in today’s environment. Without security controls and sufficient emphasis on
security, biological agents at Federal, contractor, and university laboratories are
vulnerable to theft or misuse. Senior officials at each agency have taken actions to
improve security controls over biological agents in response to the published reports, but
continued vigilance is needed.

Thank you for considering the views of the various Inspectors General on these critical
issues. This concludes my testimony.
